April 20, 2020
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: Bryant, et al. v. United States, No. 19-982 (Vide: 19-737)
Honorable Sir:
We wish to ask the Court to delay for two weeks the distribution of this matter for
conference in order to allow petitioners an opportunity to file a reply to the government’s brief in
opposition. This application is made in light of the difficulties in coordinating among various
co-counsel under the present circumstances presented by Clovid-19. The government has
consented to this application.
Respectfully submitted,

JLTB/hs

s/ Jay L. T. Breakstone
Jay L. T. Breakstone.
PARKER WAICHMAN LLP
6 Harbor Park Drive
Port Washington, NY 11050
(516) 466-6500
jbreakstone@yourlawyer.com
Attorneys for Linda Jones
Robert B. Jackson, IV
Robert B. Jackson, IV, LLC
260 Peachtree Street – Suite 220
Atlanta, GA 30303
(404) 313-2039
Rbj4law@gmail.com
Donald D. J. Stack
Stack & Associates, PC
260 Peachtree Street – Suite 1200
Atlanta, GA 30303
(404) 525-9205
dstack@stackenv.com
Counsel for Erica Y. Bryant

Alton C. Todd
The Law Firm of Alton C. Todd
312 Friendswood Drive
Friendswood, TX 77546
(281) 992-8633
alton@actlaw.com
Counsel for Robert Burns and
Daniel J. Gross, II
Douglas Peter Desjardins
Transportation Injury Law Group
1717 N Street, NW
Suite 300
Washington, DC 20036
(202) 638-5300
dpd@pangialaw.com
Counsel for Sharon Kay Boling and
Robert Park
James Edward Bell, III
Deloris King Cromartie
Bell Legal Group, LLC
219 Ridge Street
Georgetown, SC 29940
(843) 546-2408
jeb@edbelllaw.com
lori@edbelllaw.com
Counsel for Estelle Rivera

cc: Via Regular Mail to:
Mr. James N. Douse
Petitioner pro se
718 Thompson Lane
Bldg. 108, Unit 124
Nashville, TN 37204
Mr. Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

